DATE:                          August 23, 2002

MEMORANDUM FOR:                EMILY STOVER DeROCCO
                               Assistant Secretary for
                                Employment and Training



FROM:                          ELLIOT P. LEWIS
                               Deputy Inspector General
                                for Audit

SUBJECT:                       Audit of Edison Job Corps Center Property Taxes
                               July 1, 1999 Through June 30, 2000
                               Letter Report Number 02-02-209-03-370

We have completed an audit of the Edison Job Corps Center (EJCC) for the period July 1, 1999
through June 30, 2000. The audit objective was to determine if any costs claimed by Res-Care
under Contract Number 2-95-JC-32-34 included municipal service fees or similar charges
calculated on the basis of square feet occupied. Such charges are equivalent to property taxes
and, therefore, unallowable. Our audit found no such una llowable charges. We are making no
recommendations and no response to this report is necessary.

If you have any questions or wish to discuss this issue further, please contact Richard H. Brooks,
Regional Inspector General for Audit at (212) 337-2566.

Background

Job Corps was established in 1964 and is presently authorized under Title I, Subtitle C, of the
Workforce Investment Act of 1998. The overall purpose of the program is to provide
economically disadvantage youths aged 16 to 24 with the opportunity to become more
responsible, employable citizens. With annual funding more than $1 billion, Job Corps is the
largest Federal youth employment and training program. Job Corps provides total support for
participants including basic education and vocationa l classes; dental, medical and eye care;
social skills training; meals; recreational activities; counseling; student leadership activities; and
job placement services.

The Employment and Training Administration (ETA) awarded Contract Number 2-95-JC-32-34
to Res-Care, Inc., to operate the EJCC for the period November 1, 1995 through
October 31, 1997, with three additional option years.
The EJCC was formerly the Camp Kilmer Army Base. The center consists of 43 buildings in a
26 acres complex. It is located in the Township of Edison, New Jersey, 34 miles south of New
York City.

Objective

The audit objective was to determine if any costs claimed by Res-Care for the EJCC under
Contract Number 2-95-JC-32-34 included municipal service fees or similar charges calculated on
the basis of square feet occupied. Such charges are equivalent to property taxes and, therefore,
unallowable.

Scope and Methodology

We reviewed charges to utilities, and other facility maintenance expenses claimed under the
Contract Number 2-95-JC-32-34 for the period July 1, 1999 through June 30, 2000, to determine
if any of these costs were equivalent to property taxes and, therefore, unallowable. We obtained
an understanding of the EJCC internal controls through inquires with appropriate personnel,
inspection of relevant documentation, and observation of operations. The nature and extent of
our testing were based on the risk assessment.

We examined center operation expenses, general ledgers and supporting documentation
including vouchers and invoices. We used judgmental sampling techniques to test individual
account transactions. We sampled $358,510 or 32 percent of reported utilities, fuel, and
maintenance expenses. We did not audit performance measures of EJCC.

The audit was performed using criteria we considered relevant in evaluating the reasonableness,
allowability and allocability of claimed expenses. Criteria included Title 20 of the Code of
Federal Regulations, Federal contract cost principles set forth in the Federal Acquisition
Regulation, Part 31 and the Job Corps Policy and Requirements Handbook (PRH). Also, other
requirements in the contract were used as criteria in evaluating the allowability of claimed
expenses.

We conducted our audit in accordance Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests as we considered necessary to
satisfy the objectives of the audit. We conducted fieldwork from January 8 to January 10, 2002,
at EJCC located in the Township of Edison, New Jersey.

Audit Results

We found that Res-Care, Inc., did not claim municipal service fees or similar charges calculated
on the basis of square feet for the EJCC during the period July 1, 1999 through June 30, 2000.
We are making no recommendations and no response to this report is necessary.
